U.S. Department of Justice
Office of the Inspector General



        Improving the Grant Management Process 





                            February 2009 

                            u.s.Department of Justice
                         Office of the Inspector General

                  Improving the Grant Management Process

      The Office of the Inspector General (OIG) Audit Division conducts
internal audits of Department of Justice (DOJ) granting agencies and
external audits of grant recipients. 1 Internal audits assess overall grant
program management in areas such as awarding grants, monitoring
grantees, and assessing program performance and reporting. External
audits assess a grantee's compliance with grant conditions, including budget
management and control, drawdown and reimbursement requests, program
income, subgrantee oversight, matching funds, financial reporting, and
program reporting.

       Since its inception in April 1989, the OIG's Audit Division has
conducted over 30 internal audits of the Office of Justice Programs, the
Office of Community Oriented Policing Services, and the Office on Violence
Against Women. The OIG Audit Division has conducted almost 900 external
audits of grant recipients, and the Audit Division has also assisted the OIG
Investigations Division on grant related investigations.

      The OIG's Investigations Division investigates allegations of fraud
related to DOJ-funded grant programs. These investigations have led to
criminal convictions, civil recoveries, administrative recovery of funds, and
debarments of individuals and grantees. Additionally, the Investigations
Division provides proactive "Grant Fraud Awareness" training to granting
agency personnel and external audiences to increase awareness of grant
fraud issues.

       Based on the OIG's 20 years of work in these areas, we developed the
following list of ideas and practices that granting agencies should consider
adopting to minimize opportunities for waste, fraud, and abuse in awarding
and overseeing the $4 billion in DOJ funding contained in the American
Recovery and Reinvestment Act of 2009. This list includes practices that
could be implemented in the short term (within 30 days), the medium term
(within 1 year), and the long term (over 1 year).



        1 Throughout this document, the term granting agencies refers to the Office of
Justice Programs, the Office of Community Oriented Policing Services, and the Office on
Violence Against Women.
Grant Program Development

   The initial stage of any grant program is the most important. If a
program is not well developed, it is difficult to adequately implement or
monitor it. To form a sound foundation, grant programs should have clear
and strong objectives prior to soliciting applications. Further, it is essential
that all participants in the grant program share a common understanding of
the program purpose. Participants often have different interpretations,
which prevents a federal strategy from being implemented.

• 	 Program objectives therefore need to be developed in a timely manner to
    focus the efforts of all participants and to clarify expectations. To prevent
    the appearance that the program does not a have focused direction,
    grantees must not receive funding prior to submitting an application or
    before overall program objectives are established.

• 	 With each program soliCitation, measurable and obtainable performance
    measures should be established to ensure that legislative intent and
    program objectives are met.

Grant Applications

• 	 While some applicants are experienced grantees with sophisticated grant
    writers, others may have never applied for a DO] award. To ensure that
    all applicants are able to submit an application within the required
    timeframe, DO] should establish and publicize an Internet site where
    grantees or potential grantees can submit questions and receive answers
    within 1 business day, and a telephone hotline to speak with a grant
    advisor.

• 	 Granting agencies should set up or expand on-line opportunities for e­
    training for grantees, such as tutorials on grant do's and don'ts.

• 	 The application process could be used to identify potential "red flags" for
    granting agencies to follow-up on prior to making awards. The
    application could include questions such as: (1) will funds be deposited in
    a separate account, (2) do you have written accounting procedures,
    (3) do you have an inventory system in place, (4) do you have an
    accounting system that can separately track all drawdowns and grant
    expenditures, (5) what performance measures have you established to
    determine if the grant objectives are being met, (6) what data will you
    collect to measure your progress in meeting performance measures, (7)
    do you have a management risk assessment process in place to identify

                                        2

   and mitigate potential risks, and (8) what is your records retention 

   policy? 


• 	 Audits often find that grantees do not maintain timesheet documentation
    for personnel costs. The application process should include verification
    that timesheets for all personnel are maintained to document hours
    worked for grant and non-grant-related activities.

• 	 Granting agencies should enhance pre-award screening to ensure that
    only applications that meet solicitation objectives and requirements are
    sent to peer reviewers.

• 	 Granting agencies should establish criteria to gauge the risk associated
    with new grantees. For new grantees assessed to be high risk, grantee
    agencies should conduct background checks to verify proper payment of
    withholding taxes, credit standing, and other indicators of problems. In
    addition, grantee agencies should conduct Internet searches or other
    reference checks to identify negative information that should be
    considered prior to granting an award. For example, good sources of
    information include the General Services Administration's Excluded
    Parties List System, U.S. Attorneys, the Drug Enforcement
    Administration, the Federal Bureau of Investigation, the U.S. Marshals
    Service, the Bureau of Prisons, and other granting agencies.

• 	 Granting agencies should review open DIG Audit and Inspections reports
    to determine whether grantee progress in implementing corrective action
    is sufficient to award additional grants.

• 	 Granting agencies should check to make sure no ongoing DIG or other
    criminal investigations are in process before deciding to make awards.

Award Process

• 	 Granting agencies should clearly document key aspects of the award
    process and maintain this documentation, such as the: (1) basis for non­
    competitive awards, (2) peer reviewers' agreement with the peer review
    consensus report, (3) basis for award selections that differ from peer
    review or program manager recommendations, and (4) procedures used
    to identify and remedy conflicts of interest among agency staff and
    external experts involved in the peer review process.

• 	 To decrease the risk of unknowingly awarding funds to a high-risk
    grantee, a DDJ-wide procedure should be established that allows granting

                                       3

   agencies to share information on high-risk grantees prior to awarding
   funds.

• 	 Granting agencies should consider mandating that high-risk grantees
    maintain separate bank accounts for grant funds, including separate
    accounts for each grant. This would make the use of grant funds more
    transparent and reduce the grantees' ability to hide improper use of grant
    funds.

• 	 Granting agencies should determine a grantee's progress on
    implementing the requirements of prior grants before awarding additional
    grants for identical purposes.

• 	 Granting agencies should include information on fraud awareness in
    grantee award packages.

• 	 In the single audits, we are seeing an increase of the number of
    municipalities that have been formally designated as a "distressed
    municipality" by their respective states and are essentially in receivership
    with regard to financial management. These grantees may need federal
    grant funds, but they should automatically be designated high-risk and
    monitored more closely to ensure funds are accounted for and
    appropriately spent.

Monitoring

• 	 Granting agencies should fully utilize an effective risk assessment model
    so they can provide proper monitoring. The risk assessment should
    include "red flag" indicators so that granting agencies can provide on-site
    assistance or on-site reviews to grantees with risk factors. Examples of
    "red flag" indicators include: inadequate separation of cash-related
    duties, inadequate internal controls, inadequate financial management
    system, prior grant mismanagement, and prior fraud.

• 	 Granting agencies should increase their monitoring of grantees and
    subgrantees by increasing site visits and reviewing financial and progress
    reports for accuracy, completeness, and alignment with project goals.
    This practice is particularly important for new grantees, as well as for
    experienced grantees with problems managing prior grants.

• 	 Granting agencies should conduct site visits earlier in the grant period to
    catch potential problems. As part of the site visits, they should ensure


                                       4

   that the grantee is maintaining accurate accounting records and adequate
   support for its expenditures.

• 	 Granting agencies should require more specificity in grantee reporting.
    For example, a granting agency can require a report showing budgeted
    amounts versus expenditures by line item so that a reviewer can see how
    the funds are being spent. This will reinforce the requirement that the
    grantee should be adhering to the proposed budget.

• 	 For grantees designated as high-risk, grant managers should periodically
    require the submission of supporting documentation so reported
    expenditures and achievements can be verified.

• 	 Granting agencies should ensure the state administering agencies engage
    in and report back to the granting agencies on their specific monitoring
    and oversight of subgrants. This is often overlooked and is a major
    weakness in the process.

• 	 To increase transparency, granting agencies should require state agencies
    to make subgrant award documents readily available to the public. This
    will increase the number of people who may detect potential problems
    and make subrecipients more likely to follow award guidelines.

• 	 Granting agencies should have a process to ensure that all instances of
    alleged misuse of grant funds are properly documented and reported to
    the proper agency authorities and the OIG for appropriate and timely
    follow-up and resolution.

• 	 Granting agencies should strengthen procedures for referring problem
    grantees, along with specific detailed information regarding the problems,
    to the OIG for audit or investigation.

• 	 Granting agencies should require grantees to display OIG hotline
    posters in common areas to ensure proper referrals of fraud issues
    to the OIG.

• 	 As required by the initial implementing guidance issued by the
    Office of Management and Budget for the Recovery Act, granting
    agencies should include a requirement that each grantee or sub­
    grantee awarded funds made available under the Recovery Act shall
    promptly refer to the OIG any credible evidence that a principal,
    employee, agent, contractor, sub-grantee, subcontractor, or other
    person has submitted a false claim under the False Claims Act or

                                      5

   has committed a criminal or civil violation of laws pertaining to 

   fraud, conflict of interest, bribery, gratuity, or similar misconduct 

   involving those funds. In addition, and beyond what is required by 

   the OMB guidance, granting agencies also should require the 

   grantee or sub-grantee when they become aware of an 

   overpayment of funds distributed to the grantee or sub-grantee to 

   promptly report to the OIG and granting agency that overpayment. 


• 	 For grantees with the potential to have significant problems,
    granting agencies should maximize the use of special conditions,
    such as requiring: (1) third-party management of grant funds, so
    that all expenditures and drawdowns are authorized and completed
    by a third party that has no vested interest in the grantee; (2)
    authorization to proceed with the next phase of a project based
    upon evidence of acceptable performance; and (3) more detailed
    financial reports.

• 	 Grantee agencies should establish early intervention teams to make site
    visits to high-risk grantees within 30 days of grant awards.

• 	 Granting agencies should consider seeking supporting documentation
    from all grantees for randomly selected drawdown requests of Financial
    Status Reports to ensure that these figures are supported by logical and
    verifiable financial transactions.

• 	 Granting agencies should review and modify existing internal policies and
    guidance so that it is clear that their personnel are required to report
    anomalies or other indicators of the misuse of grant funds to the OIG and
    internal agency offices for appropriate follow-up.

Performance

• 	 Granting agencies need to establish a better policy for determining when
    to allow retroactive approval for violations of requirements and conditions
    versus requiring the grantee to repay questioned costs. Generally,
    granting agencies now provide a retroactive approval or waive questioned
    costs and therefore encourage non-compliance by grantees.

• 	 Granting agencies should assist grantees in determining the appropriate
    information to collect in order to assess program performance. (The
    Office of Justice Programs recently incorporated this in its measures for
    the Byrne Grant program.) Progress reports submitted to granting
    agencies often include program outputs, such as the number of people

                                       6

   served, rather than measures that assess whether the program is
   achieving its intended objective. Granting agencies should develop this
   type of guidance for each of their grant programs.

• 	 Granting agencies should have procedures in place to ensure that all
    decisions made in response to grantee requests are documented in
    writing. Grantees often state that the granting agency provided verbal
    approval for a particular course of action. When there is no
    documentation to support the grantee's statement, the auditors must
    disallow the use of grant funds in that situation.

• 	 Granting agencies should ensure they have a process to carefully review
    grantee's narrative progress reports to ensure the program is successfully
    meeting its stated objectives and to identify grantees that are at a high
    risk of failing to fulfill their stated goals and mission.

Training

• 	 Key grantee officials (such as the person submitting Financial Status
    Reports) should be required to take annual grant administration training
    that covers financial and programmatic requirements, and fraud
    awareness. This could be implemented via an on-line training program
    that can administer a test to ensure the recipient understands the basic
    requirements and can track the recipient's completion of the training.

• 	 Granting agencies should offer annual training to their grant
    administrators to reinforce administrative, financial, and programmatic
    requirements for the types of grants they award. This training should
    include grant fraud awareness and risk assessment training to remind
    partiCipants of the specific risks to these funds, encourage discussion of
    fraud prevention and detection techniques, and emphasize employees'
    obligations when they identify indicators of misuse or fraud.

• 	 Granting agencies should provide opportunities for the grant
    administrators to discuss common questions and problem areas grantees
    experienced to ensure consistent treatment by the granting agencies.
    These feedback and discussion sessions could be a good tool for
    developing the topics for training that key grantee officials will take on an
    annual basis.




                                        7

Communications

• 	 Granting agencies need to increase communication with their grantees,
    and in particular, new grantees. A common complaint from grantees is
    that the granting agency's program managers are either non-responsive
    or not available to answer questions.

• 	 To facilitate communication with and among grantees, granting agencies
    should expand the use of communication tools such as Really Simple
    Syndication (RSS) feeds, blogs, and wiki applications hosted on the
    granting agencies website.

• 	 Granting agencies should reach out to state audit agencies that provide
    coverage of grantee management and solicit both coverage of and
    feedback on grantees' use of DO] funds.

Additional Considerations - Impact on Granting Agencies Financial
Statements and Information Systems

• 	 Granting agencies' Chief Financial Officers should consider the effect that
    new grants and grant spending programs will have on their agency's
    grant accrual estimate methodology. Specifically, the Chief Financial
    Officers should evaluate the Recovery Act grants separately to see if they
    are being reported, drawn down, or spent differently than other grants.

• 	 Granting agencies' Chief Information Officers should develop procedures
    to alleviate the strain on their agency's information systems (specifically
    the financial reporting systems) from the massive number of applications,
    drawdowns, and SF-269 submissions that will occur within in a short
    period after the Recovery Act grants become available.




                                       8

